                                                             CTOR
                                                       SPE          GE
                                                  IN                     N
                                              F                              E
                                          O                                      R




                                      E




                                                                                 A
                                  C




                                                                                     L
                                  FI
                                 OF
              OFFICE OF INSPECTOR GENERAL
           EXPORT-IMPORT BANK of the UNITED STATES




SEMIANNUAL REPORT TO CONGRESS
O C T O B E R 1, 2 0 1 0 T O M A R C H 3 1, 2 0 11
T   he Export–Import Bank of the United States
     The Export-Import Bank of the United States (Ex-Im Bank) is the official export credit
     agency of the United States. Ex-Im Bank supports the financing of U.S. goods and
     services in international markets, turning export opportunities into actual sales that
     help U.S. companies of all sizes to create and maintain jobs in the United States.

     Ex-Im Bank assumes the credit and country risks that the private sector is unable
     or unwilling to accept. Ex-Im Bank also helps U.S. exporters remain competitive
     by countering the export financing provided by foreign governments on behalf of
     foreign companies. More than 80 percent of Ex-Im Bank’s transactions in recent years
     have been made available for the direct benefit of U.S. small businesses.

     In fiscal year 2010, Ex-Im Bank authorized transactions totaling $24.5 billion. Ex-Im
     Bank is an independent executive agency and a wholly owned U.S. government
     corporation that celebrated 75 years of service to the nation in 2009.

     Information about Ex-Im Bank is available at www.exim.gov.




O   nline Availability
     Reports of OIG audits, evaluations, and other activities are available at
     www.exim.gov/oig.

     Information about the responsibilities of Inspectors General across the U.S.
     Government can be found at www.ignet.gov.




A   dditional Copies
     For additional copies of this report, or reports from prior periods, write:


        Office of Inspector General
        Export-Import Bank of the United States
        811 Vermont Avenue, NW
        Washington, DC 20571

        Or call: (202) 565-3908
                                       EXPORT-IMPORT BANK
Osvaldo L. Gratacós
                                        of the UNITED STATES
Inspector General

                                               April 27, 2011




Fred P. Hochberg
Chairman and President
Export-Import Bank of the United States
811 Vermont Avenue, N.W.
Washington, DC  20571


Dear Chairman Hochberg:

This Semiannual Report to Congress of the Office of Inspector General (OIG) of the Export-Import
Bank of the United States (Ex-Im Bank) summarizes the work of the OIG during the reporting period
of October 1, 2010 to March 31, 2011. During this time, OIG staff completed significant audits and
investigations of Ex-Im Bank programs and operations, while laying the groundwork for expanded operations
in the future.

The reporting period is highlighted by the following accomplishments:

     1.	   A significant deficiency in internal controls was detected and identified during FY 2010 Ex-Im
           Bank’s financial statement audit. This deficiency resulted in a $133 million overstatement in
           credit loss provisions. This was corrected in the financial statements issued by Ex-Im Bank.

     2.	   Over $4 million of cost savings and repayments to Ex-Im Bank from active investigative referrals.

     3.	   Over $1 million in criminal restitution and special assessments paid to Ex-Im Bank.

     4.	   Two criminal judgments arising out of the OIG’s investigative efforts.

     5.	   Three criminal informations, two arrests, two search warrants executed, and four guilty pleas
           pursuant to ongoing investigative matters.



                       811 Vermont Avenue, N. W. Washington, D. C. 20571
Page Two
Transmittal Letter
Chairman Hochberg

     6.	   Twelve investigative matters referred to the U.S. Department of Justice.

     7.	   Forty-eight law enforcement intelligence referrals to Ex-Im Bank’s Office of General Counsel to
           support enhanced due diligence efforts in the approval of export credits.

     8.	   Completion of FY 2010 Federal Information Security Management Act (FISMA) audit.

I am very proud of the fine work of the OIG staff and its leadership team of Jean Smith, Assistant Inspector
General for Audits, and Lawrence Valett, Assistant Inspector General for Investigations, in achieving the
results described in this report. I look forward to providing future reports to Congress of the expanding
work of this new office as it accomplishes the OIG mission within Ex-Im Bank.




Osvaldo L. Gratacós
Inspector General
                                                               INSPECTOR GENER AL’S
The Office of Inspector General (OIG), an                           OVERVIEW
independent office within the Export‑Import
Bank of the United States (Ex-Im Bank),
supports Ex-Im Bank’s mission and goals by
working to promote economy and efficiency
in Ex-Im Bank operations while preventing,
detecting, and responding to fraud, waste, and abuse involving Ex-Im Bank programs
and operations. The Inspector General Act of 1978 (IG Act), as amended, charges the
Inspector General with responsibility for conducting audits, evaluations, inspections, and
investigations and keeping the Chairman of Ex-Im Bank and Congress fully and currently
informed about problems and deficiencies relating to the administration of Ex‑Im Bank
programs and operations.

The Ex-Im Bank OIG was created in 2002 and organized in August 2007. At the
end of this reporting period, the OIG had a staff of eleven career professionals (five
criminal investigators, one investigative analyst, three auditors, a senior inspector, and an
administrative specialist) in addition to the Inspector General (IG). The IG, Osvaldo L.
Gratacós, was sworn-in as the second Inspector General of the Export-Import Bank on
October 15, 2010.

In addition to the audits, reviews, and investigations described in the following sections of
this report, activities during this period included the following:

      1.	   In November 2010, the OIG established an Office of Inspections with the
            hiring of Mark Thorum as Senior Inspector. The Office of Inspections will
            conduct internal and external inspections of loan guarantees and insurance
            policies authorized by Ex-Im Bank. The inspections will focus on compliance
            with Ex-Im Bank requirements, ability of Ex‑Im Bank to monitor its assets,
            compliance with requirements for shipment of U.S. goods, risk management,
            and review of certain defaulted transactions.

      2.	   Regular meetings with Ex-Im Bank’s Office of General Counsel and Asset
            Management Division staff to discuss and coordinate referrals to the OIG of



                                      Office of Inspector General                               Pa g e 1
                                   I n s p e c t o r G e n e r a l ’s O v e r v i e w
                 claims and other matters where evidence indicating the possibility of fraudulent
                 acts has been identified.

           3.	   Trained several of Ex-Im Bank’s lending partners on identifying and reporting
                 fraud, waste, and abuse in export programs.

           4.	   Shared steps with other Export Credit Agencies to improve performance and
                 operations and to discuss fraud trends in certain markets.

           5.	   Expanded strategic partnerships and collaboration with other federal law
                 enforcement agencies to further our abilities to investigate fraud.

           6.	   Addressed several matters of common interest with Ex-Im Bank’s Audit
                 Committee in a mutually supportive manner consistent with the independence of
                 the OIG and a positive relationship with Ex-Im Bank.

           7.	   Participated in monthly meetings with Inspectors General of other agencies
                 responsible for regulating the U.S. financial sector to discuss issues of common
                 interest, including agency and inspectors general responses to the international
                 financial crisis.

           8.	   Participated in recurring meetings related to the renovation of Ex-Im Bank
                 headquarters building. These meetings included staff from the General Services
                 Administration, Ex‑Im Bank, construction companies, and an industrial
                 hygienist.

           9.	   Assisted Ex-Im Bank leadership in assessing ways to improve Ex-Im Bank’s
                 programs and operations as part of the National Export Initiative unveiled by
                 President Obama during his State of the Union address in 2010.




Pa g e 2             Semiannual Report to Congress
                     October 1, 2010 to March 31, 2011
                                C o n g r e s s i o n a l Te s t i m o n y
No Congressional testimony during the reporting period.




                  M a nag e m e n t C om m u n ic at ions &
                    A ct i o n s I s s u e d t o E x -I m B a n k
On December 2, 2010, the IG issued a memorandum to Ex-Im Bank management
to highlight the fact that Ex-Im Bank was not issuing an annual Performance
and Accountability Report under the Report Consolidations Act of 2000 (RCA).
Specifically, this office requested clarification as to whether Ex-Im Bank

 1.	   had made an official determination as to whether Ex-Im Bank did not fall under
       the definitions of agency or instrumentalities as defined by the RCA;

 2.	   had made a determination not to consolidate reports under the RCA; and

 3.	   had decided not to develop agency and performance measures and metrics (as
       required under the Government Performance and Results Act of 1993).

On March 16, 2011, Ex-Im Bank General Counsel responded to the questions asked by
the IG. In its memorandum, the General Counsel stated that Ex-Im Bank had elected
not to consolidate the reporting requirements as allowed under the RCA, even though
Ex-Im Bank’s annual report complies with most of RCA’s requirements. It further stated
that, commencing in FY 2012, Ex-Im Bank would begin filing an Annual Performance
Plan (APP) in accordance with the Government Performance and Results Act of 1993.

The OIG will closely monitor the development and implementation of the APP as agreed
by Ex-Im Bank management.




                                Office of Inspector General                              Pa g e 3
                             I n s p e c t o r G e n e r a l ’s O v e r v i e w
THIS PAGE IS INTENTIONALLY BLANK.




Pa g e 4              Semiannual Report to Congress
                      October 1, 2010 to March 31, 2011
         OFFICE OF AUDITS




Office of Inspector General    Pa g e 5
            Office of Audits
THIS PAGE IS INTENTIONALLY BLANK.




Pa g e 6              Semiannual Report to Congress
                      October 1, 2010 to March 31, 2011
                                                                    AUDITS &
The Office of Audits completed two audits                         EVALUATIONS
during the six months ended March 31, 2011:

     •	    Ex-Im Bank’s Financial Statements
           for Fiscal Year 2010

     •	    Fiscal Year 2010 Information Security Program and Practices and Technical
           Configuration Reviews

At the end of the reporting period, the Office of Audits had one audit in process:

     •	    Delegated Authority Working Capital Guarantee Audit




                             Au dits Is su ed Du r i ng P er iod


                                            Export-Import Bank’s Financial
                                            Statements for Fiscal Year 2010
                                        (OIG-A R-11- 01, November 15, 2010)

                       http://www.exim.gov/oig/documents/FY_2010_Financial_Report.pdf

   An independent public accountant (IPA), working under OIG supervision, conducted
   an audit of Ex-Im Bank’s financial statements for fiscal year 2010. The IPA issued an
   unqualified opinion on Ex-Im Bank’s financial statements. The IPA did not identify
   any deficiencies in internal control considered to be material weaknesses; however, the
   IPA identified a certain deficiency in internal control considered to be a significant
   deficiency. The IPA found no reportable noncompliance with laws and regulations.



                                     Office of Inspector General                             Pa g e 7
                                                 Office of Audits
           The significant deficiency initially caused a $133 million overstatement of the provision
           for credit losses. Management corrected this amount in the issued financial statements.
           The significant deficiency was a result of management’s change in the method of
           accounting for subsidy expense to rectify a reconciliation difference in the Financing and
           Program Funds account as a result of the elimination of certain Standard General Ledger
           accounts. Management expected that the additional subsidy expense recorded as a result
           of this change would be eliminated during the re-estimate process, which turned out to
           be an incorrect expectation.

           The recommended action to correct this deficiency was that management perform
           a more thorough analysis as part of any consideration to change an accounting
           treatment. The analysis should include consideration for the applicable accounting
           literature related to the issue and an evaluation of the implication of such change to the
           financial statements. Any assertion made should include an evaluation of the rationale
           supporting such assertion. A review of the analysis should be performed by an individual
           with the appropriate competency and authority. Such analysis should include all
           supporting documentation underlying the conclusion reached and evidence of review
           and approval should be documented. Depending on the significance of the change, it
           may be appropriate to consult with the U.S. Department of Treasury or/and Office of
           Management and Budget in regards to management’s assessment.

           During the annual financial statement audit, the IPA noted certain deficiencies related to
           Ex-Im Bank’s internal control over financial reporting and other matters. OIG issued a
           summary of the findings and the recommendations identified by the IPA in connection
           with this audit. The summary is presented in the report titled Fiscal Year 2010 Financial
           Statement Audit – Management Letter Excerpt (OIG-AR-11-03E, January 6, 2011).
           http://www.exim.gov/oig/documents/FinancialStatementReport2010.pdf

           The recommended actions to strengthen controls were as follows:

            1.	   The Office of the Treasurer should have at least two competent individuals to
                  perform a detailed review of the data input into the automated cash flow process
                  to ensure that the risk of human errors in the manual aspect of the subsidy
                  re‑estimate process is minimized.




Pa g e 8              Semiannual Report to Congress
                      October 1, 2010 to March 31, 2011
  2.	   The Office of the Controller should identify the appropriate department to
        risk rate the sovereign claims portfolio. Also, a more detailed review of the
        monitored credits risk rating should be performed by the appropriate individuals
        to minimize human errors.

 3.	    The Office of the Controller should coordinate with the Information
        Management and Technology Office to correct the code to ensure the expired
        contracts are properly removed from the Loan/Guarantee and Accounting
        system in accordance with management’s policy.




              Fiscal Year 2010 Information Security Prog ram and
                   Practices and Technical Conf iguration Reviews
                              (OIG-A R-11- 02 , December 15, 2010)

The Federal Information Security Management Act (FISMA) requires an annual
independent evaluation of Ex-Im Bank’s information security program and practices.
The OIG contracted with an IPA to determine whether Ex-Im Bank met FISMA
requirements and to evaluate Ex-Im Bank’s privacy program and privacy impact
assessment process. The audit also included a technical review to determine if baselines
and implemented configurations of routers and firewalls are adequate for protecting
Ex-Im infrastructure and data.

The audit found that Ex-Im Bank adequately addressed many FISMA requirements.
Ex-Im Bank

 •	     maintained a Certification and Accreditation program;

 •	     adequately implemented a security configuration management program;

 •	     complied with security training program requirements;

 •	     maintained an adequate Plan of Action and Milestones process;




                                 Office of Inspector General                               Pa g e 9
                                             Office of Audits
              •	    complied with remote access, as well as account and identity management
                    guidance;

              •	    adequately established an entity-wide continuous monitoring program;

              •	    completed and tested contingency plans for major systems;

              •	    developed incident reporting policies and procedures; and

              •	    addressed three out of four findings identified in the prior year FISMA audit.
                    Management has been working on the remaining open recommendation and
                    plans to complete their work by January 31, 2012.

             While the above are positive efforts, additional action is needed to comply fully with
             guidance issued by the Office of Management and Budget and the National Institute of
             Standards and Technology. The audit made one recommendation, which management
             implemented, that should strengthen Ex-Im Bank’s information security.

             Because this report addresses issues associated with information security at Ex-Im Bank,
             the OIG did not make the report available on-line.




Pa g e 1 0               Semiannual Report to Congress
                         October 1, 2010 to March 31, 2011
                                                       On- g oi ng Au dit
         Delegated Authorit y Working Capital Guarantee Audit

The OIG is completing audit fieldwork to evaluate Ex-Im Bank’s policies and procedures
for the Delegated Authority Working Capital Guarantee Program. The objective of
this audit is to determine whether Ex-Im Bank supplied sufficient oversight of lenders
granted Delegated Authority to approve Working Capital guarantees. The specific audit
objectives are to evaluate the

 1.	   oversight practices used to ensure that lenders comply with Ex-Im Bank’s
       Delegated Authority Working Capital Guarantee Program requirements;

 2.	   internal controls to ensure examinations performed by Ex-Im Bank are properly
       managed; and

 3.	   internal controls over lenders to reduce/eliminate claims.

Audit work commenced in January 2011. The OIG anticipates issuing an audit report
in May 2011.




                          G o v e r n m e n t A cc o u n t a b i l i t y
                                               O f f i c e (GAO)
The IG Act states that each Inspector General shall give particular regard to the
activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period,
GAO issued no reports on Ex-Im Bank.




                                Office of Inspector General                              Pa g e 1 1
                                            Office of Audits
             A u d i t F o l l o w -U p

               The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
               require the Inspectors General of certain agencies to report “instances and reasons”
               when the Agency has not met intermediate target dates established in a remediation plan
               to bring the Agency’s financial management system into substantial compliance with
               the FFMIA. Ex-Im Bank is not subject to the FFMIA; however, it voluntarily seeks to
               comply with its requirements. During this reporting period, there were no events giving
               rise to a duty to report under FFMIA.

               As of the end of this reporting period, there were no audit recommendations on reports
               issued over six months ago that have not been either fully implemented or are in the
               process of implementation.




Pa g e 1 2                Semiannual Report to Congress
                          October 1, 2010 to March 31, 2011
OFFICE OF INVESTIGATIONS




   Office of Inspector General   Pa g e 1 3
      Office of Investigations
THIS PAGE IS INTENTIONALLY BLANK.




Pa g e 1 4            Semiannual Report to Congress
                      October 1, 2010 to March 31, 2011
                                           INVESTIGATIONS &
                                           HOTLINE ACTIVITY




                                   M il e ston e s & Not e wort h y
                                               A cc o m p l i s h m e n t s
During this reporting period, the Office of Investigations achieved several milestones and
accomplishments towards meeting mission objectives of investigating trade finance and
export credit fraud impacting Ex-Im Bank. Several actions have occurred in ongoing
investigations resulting from investments made in training, infrastructure, and law
enforcement resources by the Office of Investigations.

These actions include:

     •	    cost savings and repayments of $4,316,558 to Ex-Im Bank stemming from
           referrals of active investigative information

     •	    two criminal judgments resulting in 24 months imprisonment, 84 months
           probation, and $1,067,706 in criminal restitution and special assessments

     •	    two arrests based on warrants obtained by Ex-Im Bank OIG Special Agents;

     •	    two federal search warrants executed against subjects in ongoing investigations

     •	    three criminal informations against subjects of ongoing investigations




                     Office of Inspector General                                    Pa g e 1 5
                        Office of Investigations
     •	      twelve investigative matters referred to the U.S. Department of Justice for
             prosecutive decision

     •	      four plea agreements entered in court by subjects pursuant to ongoing
             investigative matters

     •	      forty-eight pieces of investigative information referred to Ex-Im Bank Office
             of General Counsel concerning potential fraud and funds at risk to support
             enhanced due diligence efforts in approving, processing, and monitoring export
             credit loan guarantees and insurance policies




Pa g e 1 6                       Semiannual Report to Congress
                                 October 1, 2010 to March 31, 2011
                                        Summ a ry               of      I n v e st ig at ions
Ex-Im Bank OIG Office of Investigations evaluates all reports of possible fraud or illegality
affecting Ex-Im Bank programs and activities. Such reports are received from a variety
of sources – Ex-Im Bank employees, Ex-Im Bank Office of General Counsel, participants
in Ex-Im Bank transactions, other government agencies, and Ex‑Im Bank OIG Hotline.
Evaluations that identify reasonable indications of possible fraud or illegality result in an
investigation. These investigations are summarized in the table below.


 Summary of Investigative                    Total                   No. of                 A mount
 Activity During Period                  Investigations              Claims*               Of Claims

 Investigations open as of
                                                 48                    504                  $295,147,473
 October 1, 2010

 Opened during period                            3                     104                   $66,365,017

 Closed during period                           (14)                   (74)                 ($13,152,674)

 Investigations open as of
                                                 37                    534                  $348,359,816
 March 31, 2011

*  The number and amount of claims paid subject to investigation. Not all investigations
   involve claims paid by Ex‑Im Bank. Not all claims opened or closed in the period
   are related to cases opened or closed in the period, but may be related to other active
   investigations. The referral of a claim to the OIG for investigation does not establish the
   existence of fraud, and not all claims included in a case under investigation are necessarily
   fraudulent until proven so by evidence developed in the investigation. The number of
   claims may vary during the course of an investigation as facts and findings develop.




                      Office of Inspector General                                                  Pa g e 1 7
                         Office of Investigations
Summ a ry              of     I n v e s t i g a t i v e R e s u lt s
The Office of Investigations obtained the following actions during this reporting period.


                                                   OIG                   Joint
 Description                                                                                Total
                                              Investigations        Investigations*
 Matters Referred to the
                                                      8                      4               12
 U.S. Department of Justice
 Arrests Made                                         2                      0                2

 Search Warrants Executed                             2                      0                2
 Criminal Indictments,
 Informations, Complaints, Pleas                      3                      4                7
 Entered
 Criminal Judgments                                   2                      0                2

 Prison Time (months)                                 24                     0               24

 Probation (months)                                   84                     0               84
 Criminal Fines, Restitution, and
                                                 $1,067,706                  0            $1,067,706
 Forfeiture
 Administrative Actions **                            5                      1                6
 Administrative Cost Savings and
                                                 $4,216,558             $100,000          $4,316,558
 Repayments

*  Joint investigations with other law enforcement agencies.


**  Administrative actions are actions taken by Ex-Im Bank to stop transactions, cancel
    policies, or protect funds at risk based upon investigative information.




Pa g e 1 8                           Semiannual Report to Congress
                                     October 1, 2010 to March 31, 2011
                                                       H o t l i n e A ct i v i t y
Ex-Im Bank OIG maintains a Hotline reachable by telephone, email, or mail to receive
reports of fraud, waste, and abuse in Ex-Im Bank programs and operations. Hotline reports
are evaluated by our investigative team and, based on the available evidence, may result
in the initiation of an investigation, referral to other law enforcement authorities having
jurisdiction, or referral to management for administrative action.

The OIG received eight Hotline reports during the reporting period. One was resolved
by the Hotline administrator, three were referred elsewhere, and four were referred for
investigation.

The OIG will not disclose the identity of a person making a report through the Hotline
without consent unless the Inspector General determines such disclosure is unavoidable
during the course of an investigation.

Hotline reports can be made:
    by phone at 1-888-OIG-EXIM (1-888-644-3946)
    by email to IGhotline@exim.gov
    by mail or delivery service to
        Ex-Im Bank OIG Hotline
        Office of Inspector General
        Export-Import Bank of the United States
        811 Vermont Ave., N.W.
        Room 976
        Washington, DC  20571




                    Office of Inspector General                                  Pa g e 1 9
                       Office of Investigations
I n v e st ig at ions
Criminals Use an Array of Methods to Def raud Ex-Im Bank
Loan Guarantee and Export Credit Insurance Prog rams

Two of Ex-Im Bank’s key programs — the loan guarantee program and the export credit
insurance program — have been particularly susceptible to fraud schemes by foreign
borrowers, U.S. based exporters, and other transaction participants, including deal brokers
commonly referred to as “agents” or “finders” who assist in arranging the transactions
and shipments. These two programs account for the majority of investigations currently
underway. Each program offers different features to Ex‑Im Bank customers, but criminal
activity exploit certain processes within the programs in order to induce Ex-Im Bank to
approve fraudulent loan guarantees or insurance coverage.

                               Loan Guarantee Program

       Ex-Im Bank assists exporters by guaranteeing term financing provided
       by a commercial lender to creditworthy international buyers, both
       private and public sector, for purchases of U.S. goods and services.
       Ex-Im Bank’s guarantee of a lender’s loan to an international buyer
       is used to finance purchases of U.S. goods and services. Criminals
       have exploited this program by submitting false financial statements
       of foreign borrowers in order to induce Ex-Im Bank to provide loan
       guarantee coverage for which they might otherwise be ineligible and by
       submitting false documentation to the guaranteed lender and Ex-Im
       Bank regarding the shipment, nature, or quantity of the U.S. goods
       allegedly being exported.

Successful investigative efforts within the loan guarantee program during the reporting
period includes the following:


Guilt y Plea s Entered in Severa l Ex-Im Ba nk Fraud Schemes

During this reporting period, several defendants in Ex-Im Bank fraud cases have pleaded
guilty in various judicial districts pursuant to ongoing investigations by Ex‑Im Bank



Pa g e 2 0                      Semiannual Report to Congress
                                October 1, 2010 to March 31, 2011
OIG Special Agents. The pleas cap successful efforts by OIG Special Agents to detect
and investigate a variety of fraud schemes used by the defendants and others to obtain
cash loan proceeds from lenders guaranteed by Ex-Im Bank, then keep or send cash to
foreign borrowers overseas. Once the loan has defaulted, Ex-Im Bank will pay the claim
as guaranteed under the program. In these types of investigations, several parties may
be involved to help falsify loan applications, create fake export and shipping records, and
distribute stolen loan proceeds worldwide. At the end of this reporting period, the three
defendants are awaiting sentencing in federal court and these investigations are continuing.

                          Export Credit Insurance Program

       This program offers protection, in the form of several different
       insurance policy types, to U.S. exporters and their lenders against
       non-payment by foreign buyers due to commercial and political risks.
       Export credit insurance allows exporters to increase export sales by
       limiting international repayment risk, offering credit to international
       buyers, and enabling exporters to access working capital funds. One
       fraudulent scheme to exploit this program involves the falsification
       of shipping records to convince Ex-Im Bank that the described goods
       have been shipped when in fact they have not.

Examples of successful investigative efforts within the Export Credit Insurance program
during this reporting period include the following:


                                   Mia mi Resident Sentenced for Defrauding the
                                        Export-Import Ba nk of the United States

Miami resident Guillermo Sanchez was sentenced on November 1, 2010, by U.S. District
Judge Gladys Kessler, to 48 months supervised release, 200 hours community service, and
ordered to pay restitution in the amount of $1,062,490 for his role in defrauding Ex‑Im
Bank of approximately $854,000. Through the terms of his guilty plea, Sanchez has paid
Ex-Im Bank $1,062,490, which included penalties and interest.

Sanchez previously pleaded guilty in U.S. District Court in Washington, D.C. on April 29,
2010, to one count of conspiracy to defraud Ex-Im Bank and one count of mail fraud in
connection with 10 loans guaranteed by Ex-Im Bank.




                    Office of Inspector General                                   Pa g e 2 1
                       Office of Investigations
According to court documents and testimony, from approximately May 2006 through
August 2007, Sanchez acted as a purported exporter of construction equipment to South
America in ten different loan transactions. Sanchez’s company, ACE Products, received loan
proceeds based on false representations and Sanchez retained a portion of the money for his
own personal benefit and use. The loans were obtained from a Florida bank and insured by
Ex-Im Bank. Sanchez admitted that he and a co‑conspirator prepared and submitted loan
documents falsely reflecting that Sanchez purchased and shipped generators manufactured
in the United States to South American customers. On or about August 2007, defaults on
the loan transactions caused Ex-Im Bank to pay the Florida bank’s claim for outstanding
principal and accrued interest.

The scheme was investigated by Ex-Im Bank OIG Special Agents after bank staff referred
information concerning the loan defaults. This case was prosecuted by the U.S. Department
of Justice Criminal Division Fraud Section.


Mia mi Resident A rrested for Role in A llegedly Defrauding
the Export Import Ba nk of the United States

U.S. Customs and Border Patrol officers in Atlanta, Georgia arrested Miami resident Carlos
Luis Morano on November 8, 2010, as he arrived on a flight from Argentina. Morano was
arrested based on a warrant obtained by Ex-Im Bank OIG Special Agents on charges that
Morano conspired to commit wire fraud in connection with two Ex‑Im Bank short-term,
multi‑buyer, loan insurance policies resulting in loan defaults and claims of approximately
$750,000 paid by Ex‑Im Bank.

An arrest based on a criminal complaint is merely a charge and should not be considered as
evidence of guilt. The defendant is presumed innocent until proven guilty in a court of law.

According to the criminal complaint, Morano owned and managed a business known as
CLM Financing and Investment in Miami, Florida, which purported to be an investment
planning company. Around 2009 through 2010, Morano conspired with others to obtain
Ex-Im Bank insured loans for exporting U.S. goods overseas. Morano received fees or
commissions for help in obtaining Ex-Im Bank insured loans that were intended to purchase
U.S. manufactured goods for shipment to borrowers in Central America. As part of the
loan guarantee, the exporters were required to submit invoices and shipping documents
as evidence that the goods had been shipped. Morano and others conspired to create
fake foreign buyers and falsify invoices and shipping documents and did not use the loan
proceeds for the purchase and shipment of the goods guaranteed by Ex-Im Bank. Morano



Pa g e 2 2                      Semiannual Report to Congress
                                October 1, 2010 to March 31, 2011
was charged with conspiracy to commit wire fraud by knowingly executing a scheme or
artifice, by means of false or fraudulent pretenses transmitted by wire, for purposes of
obtaining money or property. In 2002, Morano also acted as an exporter in approximately
20 other Ex-Im Bank insured loans that subsequently defaulted, resulting in approximately
$1.5 million in losses to the U.S. government.

This case is being prosecuted by the U.S. Department of Justice Criminal Division Fraud
Section and the U.S. Attorney’s Office of the Southern District of Florida.


                         Mia mi Resident Sentenced to 24 Months in Prison for
                       Defrauding the Export Import Ba nk of the United States

Miami resident Yader A. Padilla was sentenced to 24 months in prison on December 3, 2010,
by the Honorable U.S. District Judge Paul C. Huck in U.S. District Court for the Southern
District of Florida. Padilla had previously pleaded guilty on July 29, 2010 to a criminal
information that charged him with conspiracy to commit wire fraud in a scheme to defraud
Ex-Im Bank of approximately $310,639.

According to court documents and testimony at the plea hearing, from approximately May
2009 through January 2010, Padilla falsely represented his Miami, Florida pharmacy as an
exporter of U.S. manufactured pharmaceutical products. Instead of exporting the purported
U.S. manufactured pharmaceutical products to South American buyers, Padilla and his
co-conspirators misappropriated the money and utilized it for their personal gain. Padilla’s
loans were obtained from a Florida bank and insured by Ex-Im Bank. Padilla admitted that
he and co-conspirators prepared and submitted false loan documents, including commercial
invoices, packing lists, and bills of lading that falsely reflected that Padilla purchased and
shipped approximately $310,639 worth of pharmaceutical products to South American
customers.

Padilla was arrested in Miami on May 5, 2010, by Ex-Im Bank OIG Special Agents pursuant
to the criminal investigation. Padilla’s arrest, conviction, and sentencing are part of a larger,
ongoing investigation by Ex-Im Bank OIG into allegations of fraud concerning Padilla and
other co-conspirators. In addition to his prison term, Padilla was ordered to serve 36 months
supervised release after his confinement. Padilla was also ordered to serve 1,400 hours of
community service and pay $215,639 in restitution to the U.S. government.




                     Office of Inspector General                                     Pa g e 2 3
                        Office of Investigations
The scheme was investigated by Ex-Im Bank OIG Special Agents after bank staff referred
information concerning the suspicious loan defaults. This case was prosecuted by the U.S.
Department of Justice Criminal Division Fraud Section.


Mia mi Exporter A rrested in Ex-Im Ba nk Fraud Ca se

In another ongoing investigation by Ex-Im Bank OIG Special Agents, a Miami exporter
was arrested by U.S. Customs and Border Patrol officers at Miami International Airport
on October 30, 2010 ,as he entered the United States from abroad. The arrest stemmed
from a criminal arrest warrant obtained by Ex-Im Bank OIG Special Agents pursuant to
ongoing investigative efforts examining export credit insurance fraud schemes in the Miami
area. In these types of schemes, exporters seek and obtain export credit insurance backed
by Ex-Im Bank for exporting products abroad. However, instead of shipping the goods,
these individuals will then keep or split the cash loan proceeds with foreign parties who
then default on the loan. The exporter has pleaded guilty and is awaiting sentencing in this
matter. This investigation is continuing.


Ex-Im Ba nk Broker Removed from List of Registered Ex-Im Ba nk Brokers

During the course of ongoing investigative efforts, Ex-Im Bank OIG Special Agents
found evidence that an Ex-Im Bank registered broker was in violation of Ex‑Im Bank’s
Insurance Broker Standards of Service and Conduct and presented those findings to Ex‑Im
Bank officials. Specifically, it was found that the broker was aware that the owner of an
investment firm in Miami, Florida, continued to be involved with Ex‑Im Bank insurance
policies after a 2008 Ex-Im Bank directive to the contrary. The broker’s actions indicated
that he failed to act with the utmost good faith and integrity with regard to Ex‑Im Bank
matters as required by the Insurance Broker Standards of Service and Conduct. As a result,
the broker was instructed to have no direct or indirect involvement with any Ex‑Im Bank
insurance policy, insured or guaranteed transactions, or direct loan. Effective February 28,
2011, it was determined that it was in the best interest of Ex‑Im Bank to remove both the
broker and his company from the list of registered Ex‑Im Bank brokers and to terminate
Ex-Im Bank’s broker agreement with each of them.




Pa g e 2 4                     Semiannual Report to Congress
                               October 1, 2010 to March 31, 2011
                           OIG Special Agents Work Collaboratively with
                              Ex-Im Bank to Help Protect Funds at Risk

To the extent permissible and within the confines and limitations of an investigation, OIG
Special Agents work collaboratively to share investigative intelligence with divisions of Ex‑Im
Bank including the Office of General Counsel, the Credit and Risk Management Division,
and the Asset Management Division. This collaboration helps identify potential and
suspected fraudulent activity within Ex‑Im Bank transactions and protect taxpayer funds at
risk.

During this reporting period, the OIG shared developed investigative leads with Ex‑Im
Bank management resulting in enhanced monitoring of several existing transactions and
due diligence reviews of proposed transactions. As an example, the OIG shared active law
enforcement intelligence with Ex-Im Bank on five different matters concerning suspected
criminal activity by participants involved in active policies or transactions under review. As
a result of information provided in one particular matter, Ex‑Im Bank denied nine claims
totaling $500,735. In another matter, Ex‑Im Bank canceled one short term insurance
policy in the amount of $3,500,000. Additionally, the OIG was able to facilitate and collect
repayments to Ex-Im Bank in the amounts of $5,000, $100,000, and $210,823 respectively
from three separate defendants in ongoing investigative matters.

Additionally during this reporting period, the OIG has made 48 referrals of investigative
information to Ex-Im Bank Office of General Counsel to enhance due diligence efforts.

These efforts are part of the Office of Investigations’ objective to expeditiously protect
funds at risk concurrent with ongoing criminal investigations and to enhance Ex‑Im
Bank’s existing capabilities in monitoring, oversight, and civil collection efforts involving
transactions in which fraud is uncovered.




                     Office of Inspector General                                      Pa g e 2 5
                        Office of Investigations
OIG Combines Ef forts to Educate the Export Community
on Identif ying and Reporting Fraud , Waste, and Abuse

On October 19, 2010, the OIG helped prepare and present a training session to Ex‑Im
Bank staff on ways to recognize and report a variety of fraudulent schemes within several
Ex-Im Bank programs. The effort was spearheaded by the OIG and Ex‑Im Bank Credit
Review & Compliance division and presented with assistance from the Office of General
Counsel. The purpose was to help illustrate some recognizable fraud scenarios and fraud
risks associated with Ex-Im Bank’s programs. The presentation successfully illustrated the
collaborative efforts the OIG has established with internal Ex‑Im Bank stakeholders, as well
as other members of the lending and export community.




Pa g e 2 6                      Semiannual Report to Congress
                                October 1, 2010 to March 31, 2011
Se m i a n n ua l Su m m a ry of C l ose d I n v e s t ig at ions
              Not R e l e a sed to t h e P u bl ic

 1.	   This investigation was initiated based            amount of the claim and unlikelihood
       on a suspicious transaction involving             of producing any actionable results.
       the alleged shipment in 2006 of                   This case was closed on October 22,
       approximately 46,000 pounds of used               2010. (Case No. 07-0001-OGC-C)
       jeans by an exporter insured by Ex-Im
       Bank. The buyer allegedly defaulted on      2.	   This investigation was initiated based
       payments and the exporter subsequently            on information that used computer
       filed a claim in the amount of                    equipment was sold and shipped to a
       $71,725.00 and received payment on                borrower in South America, along with
       January 12, 2007. However, during                 cash from loan proceeds guaranteed
       collection efforts by Ex‑Im Bank, the             by Ex-Im Bank. It was alleged that
       buyer denied any involvement in the               the computer equipment was of lesser
       transaction and information appeared              value than represented to Ex-Im Bank
       to indicate the shipment may not have             and the difference in price was paid in
       occurred. Investigation found that a              cash to the foreign borrower and their
       trailer of goods was apparently delivered         financial advisor. Further investigation
       to, but was never shipped out of, the             found that the exporter did transfer
       Port of Baltimore and the dock receipt            $500,000 to the borrower and $30,000
       appeared to have been forged by parties           to the financial advisor, as alleged.
       unknown. The exporter denied any                  Despite the transfer of cash, there
       knowledge of fraud and claimed the                was no dollar loss to the government
       buyer did in fact receive the goods in            since the borrower paid the loan back
       question. Other evidence and witnesses            in full and there was no default or
       could not be located to further the               claim ever made to Ex‑Im Bank. It
       investigation. On October 22, 2010,               was found that the exporter moved
       the facts of this investigation were              overseas and declined to be interviewed
       discussed with the U.S. Department                in this matter. Furthermore, it
       of Justice (DOJ) at which time                    was determined that additional
       they declined prosecution based on                expenditures to travel and meet
       the small dollar loss, aged dates of              with the borrower and the financial
       shipment and claim payment, and the               advisor in this matter would prove
       lack of sufficient evidence. Further              unproductive due to acts occurring
       investigation was determined not to               outside the statute of limitations and
       be cost beneficial due to the low dollar          no dollar loss to the government. On


                               Office of Inspector General                             Pa g e 2 7
                                  Office of Investigations
             January 28, 2011, the facts of this              money back from the individuals in
             investigation were provided to DOJ at            question. Investigators also obtained
             which time this case was declined. The           and reviewed documents provided by
             facts of this case were discussed with           the subjects that failed to show any
             Ex-Im Bank Office of General Counsel             partnership or investment in a foreign
             for any enhanced due diligence deemed            real estate deal, as alleged, or any Ex-Im
             appropriate. This investigation was              Bank deals involving the subjects.
             closed on February 10, 2011. (Case No.           Furthermore, there was no evidence of
             08-0003-HOT-C)                                   any improper representations regarding
                                                              their relationship with Ex-Im Bank.
      3.	    This investigation was initiated based           Attempts to facilitate interviews with
             on information from a prospective                the subjects through counsel were
             borrower that he was approached by               unproductive, further investigation
             two individuals who misrepresented               was deemed not to be cost beneficial
             themselves to be associated with                 under the circumstances, and there was
             Ex-Im Bank. Based on these                       no dollar loss to the government. No
             misrepresentations, the borrower alleged         evidence of a crime could be established
             he spent approximately $512,000 in               and this matter was not presented to
             funds, fees, and travel expenses in              DOJ. This investigation was closed
             efforts to secure an Ex-Im Bank loan,            on February 24, 2011. (Case No. 08-
             and further alleged they proposed a              0006-OGC-C)
             scheme to divert those loan proceeds
             for use in private land deals. However,    4.	   This investigation was initiated based
             the complainant alleged no funding               on information from a borrower who
             ever materialized. During the course             alleged his company entered into a
             of this investigation, it was found              loan agreement in 2008 with a lender
             that no applications were submitted              and paid up front fees of $350,000
             to (or any transactions approved by)             although no Ex-Im Bank funding
             Ex-Im Bank with respect to the above             materialized. It was alleged that
             referenced allegations. Accordingly,             the lender misrepresented that they
             there was no dollar loss to the U.S.             had a Master Guarantee Agreement
             government. The complainant was not              (MGA) with Ex‑Im Bank and were
             cooperative and investigative efforts to         misleading prospective borrowers,
             interview and obtain documents from              collecting sizable up-front fees, and then
             the complainant were unproductive.               failing to follow through with a loan.
             Subsequently, the complainant reported           Examination of the lender’s website
             that he had received most of his                 found apparent misrepresentations




Pa g e 2 8                      Semiannual Report to Congress
                                October 1, 2010 to March 31, 2011
regarding their relationship with Ex‑Im          or that any applications had ever been
Bank. Ex-Im Bank issued a cease and              submitted by the lender to Ex-Im Bank
desist letter to the lender in 2008,             concerning these borrowers. Based
at which time the website was shut               on this information, evidence of a
down and subsequently changed. The               crime could not be clearly established
investigation found that the lender              and no dollar loss to the government
did have an MGA, at a prior time,                was incurred. This matter was not
which was subsequently revoked.                  presented to DOJ. This investigation
However, investigative review of the             was closed on October 25, 2010. (Case
loan agreement between the borrower              No. 09-0001-OGC-PI).
and the lender failed to identify Ex‑Im
Bank as having any participation in the    5.	   This investigation was initiated to
loan, nor could evidence be found that           support an ongoing investigation
such representations were ever made to           by other law enforcement agencies
the borrower.                                    involving several exporters fraudulently
                                                 engaged in loan transactions
During the course of this investigation,         guaranteed or insured by Ex-Im Bank.
another borrower made similar                    OIG Special Agents coordinated
allegations. He had paid $226,000 in             appropriately with these agencies
extension fees to the lender for a loan          and the U.S. Attorney’s Office, at
that was never approved by Ex-Im                 which time new allegations were
Bank. Subpoenaed documents from                  developed and are currently being
the lender revealed communications               pursued by Ex-Im Bank OIG under
with this second borrower that clearly           a separate investigation. The above
informed the borrower that the                   referenced matter remained open
lender no longer had any guarantees              to provide logistical support and
or association with Ex‑Im Bank.                  financial intelligence to participating
Subsequently, this borrower’s attorney           law enforcement agencies and the
reported that his client contributed             U.S. Attorney’s Office, to include the
to the loss by refusing to follow the            production of Ex-Im Bank records
attorney’s advice as counsel in the              and database searches, claims data
matter.                                          analysis, and investigative review of
                                                 charging documents for accuracy as it
In both cases, there was no dollar               pertains to Ex-Im Bank language. The
loss to the government. No evidence              investigation is still being pursued by
was found that the lender made any               those other agencies, but it has been
misrepresentations to the borrowers              determined that active participation




                        Office of Inspector General                            Pa g e 2 9
                           Office of Investigations
             by Ex‑Im OIG is not necessary to                  the related shipping documents were
             further judicial action in the matter.            obtained. Investigative efforts were able
             All investigative support has since been          to prove the bills of lading themselves
             accomplished and, absent any active               were false. Information concerning the
             participation by Ex‑Im Bank OIG, this             exporter and his related companies was
             case was closed on October 18, 2010.              provided to Ex-Im Bank officials for
             (Case No. 09-0002-OGC-C)                          enhanced due diligence. OIG Special
                                                               Agents interviewed the subject at which
      6.	    This investigation concerned an                   time he admitted to some instances
             exporter who had filed 19 claims                  wherein buyers did not receive goods
             with Ex‑Im Bank between 1997 and                  but subsequently sought counsel in this
             2005 in connection with transactions              matter. On October 18, 2010, this case
             involving a variety of South American             was presented to the U.S. Attorney’s
             buyers. Ex-Im Bank found indications              Office of the Southern District of
             that some of the buyers may not have              Florida, at which time they declined
             existed or that other buyers had paid             prosecution based on the low dollar
             the exporter who failed to inform                 loss and events beyond the statute of
             Ex-Im Bank. The total loss to the U.S.            limitations. This case was closed on
             government based on the 19 claims                 October 22, 2010. (Case No. 09-0006-
             was $311,244. The last claim had been             OGC-C)
             paid in 2005. Investigation found
             no other Ex-Im Bank transactions or         7.	   This case was initiated based on
             claims associated with the exporter               allegations that an exporter may not
             or his related companies. It was                  have shipped goods or equipment
             found that, during recovery efforts,              as represented to Ex-Im Bank and
             the exporter admitted to collection               that collection officers from Ex‑Im
             agents he did not ship some goods,                Bank could not locate some buyers.
             collected money from the borrowers,               The loans defaulted, leading to four
             and received insurance proceeds from              claims between January 2006 and
             Ex-Im Bank. Investigative financial               September 2007 totaling $167,952.
             analysis of multiple accounts found               Ex-Im Bank OIG Special Agents
             the exporter’s actual purchases and               interviewed collection officials who
             receipts from industry related suppliers,         reported that buyers could not be
             but was unable to connect specific                located and indicated the exporter may
             product purchases to specific borrowers.          have exported some products to an
             Analysis of the four highest claims               affiliated business overseas rather than
             (totaling $141,970) was conducted and             to one buyer. Investigation found no




Pa g e 3 0                       Semiannual Report to Congress
                                 October 1, 2010 to March 31, 2011
      prior criminal history or outstanding            and procedures were followed with
      warrants concerning the subject in this          regard to hiring and the selection was
      matter and determined there had been             made from a large pool of applicants.
      no other Ex‑Im Bank transactions or              There was no evidence to indicate the
      claims involving the subject. Despite            process was unfair or uncompetitive.
      the alleged concerns, the investigation          Analysis of the rating and award files
      was able to authenticate that the                and interviews with senior staff found
      shipments did occur and the bills of             no violations of rules or policies and
      lading that evidenced shipment to the            the award justification was reviewed
      buyers were legitimate. Furthermore,             appropriately. A total of 18 travel
      financial analysis found no evidence             authorizations and claims were reviewed
      indicating any loan proceeds were                and analyzed and it was determined
      sent to any of the foreign buyers.               that all travel was well documented
      On December 2, 2010, this case                   and approved. Other staff members
      was presented to the U.S. Attorney’s             on similar business accompanied the
      Office of the Southern District of               individual and all travel was within
      Florida, at which time they declined             allowable expenses and was appropriate.
      prosecution based on the low dollar              No improper conduct was found in this
      loss and the lack of evidence of any             matter and there were no actionable
      fraudulent activity. This case was               results to be reported to Ex-Im Bank
      closed on December 7, 2010. (Case                or the DOJ. This case was closed on
      No. 09-0024-AMD-PI-C)                            October 14, 2010. (Case No. 10-0005-
                                                       HOT-PI)
8.	   This investigation was initiated
      based on an anonymous letter to the        9.	   This investigation was initiated from
      OIG Hotline alleging that a senior               a request for support from another law
      Ex-Im Bank official circumvented                 enforcement agency. It was alleged
      hiring rules, provided an unjustified            that certain subjects in an unrelated
      rating and cash award for a friend,              investigation were attempting to secure
      and took expensive and unnecessary               an Ex-Im Bank loan and may possibly
      business trips to two foreign countries.         be bribing foreign officials to help in
      Investigators interviewed senior                 the process. It was found that several
      Ex-Im Bank officials and reviewed                letters of interest were submitted to
      appropriate personnel records, hiring            Ex-Im Bank for potential deals, but no
      records, award information, and                  applications had been received or loans
      travel records. In summary, it was               approved. Ex-Im Bank OIG Special
      found that all regulations, policies,            Agents obtained financial records, but




                               Office of Inspector General                           Pa g e 3 1
                                  Office of Investigations
             no financial intelligence was found in         that the shipments in each of the
             this matter to support the allegations.        claimed transactions did in fact occur
             Subsequently, it was learned by other          to the borrower. Ex-Im Bank officials
             law enforcement partners that the              and lending institution officials were
             anticipated deal never materialized and        interviewed. Other than a potential
             there were no applications or loss to          misunderstanding, no clear explanation
             Ex-Im Bank. A review of the evidence           was provided regarding the accountant’s
             with DOJ indicated that there were             apparent discrepancy regarding his
             no chargeable offenses related to any          preparation of the statements. No
             violation affiliated with Ex‑Im Bank.          indications were found of suspected
             Accordingly, this investigation was            fraud by the borrower. Investigation
             closed on October 7, 2010. (Case No.           found that goods were shipped and,
             10-0013-LEO-C)                                 other than the initial conflicting
                                                            statement to the lender, there did not
      10.	 This investigation was initiated from            appear to be any reasonable indication
           statements made by an accountant                 of a crime. Further investigation of
           that caused the lender and Ex-Im                 this matter was deemed not to be cost
           Bank to question whether or not he               beneficial or likely to produce further
           actually prepared a borrower’s financial         evidence to help refute or verify whether
           statements. About the same time, the             or not the accountant prepared the
           borrower defaulted on three previous             financial statement in question. This
           loans totaling $4.8 million in losses            case was closed on January 20, 2011.
           to the government, but attributed                (Case No. 10-0017-OGC-PI).
           those defaults to a business fire from
           which he was unable to recover. OIG         11.	 This case was initiated based on
           Special Agents compared previous                 allegations that a prospective exporter,
           financial statements prepared by the             seeking insurance from Ex-Im Bank
           accountant in past transactions over             through an approved broker, sent a
           several years and found no discrepancies         forged letter to the lender. The letter
           in signatures, letterheads, formats,             was purportedly from the broker to the
           or unusual variances in the figures.             exporter stating he had been “approved”
           Interviews with Ex‑Im Bank collection            for an Ex-Im Bank insurance policy.
           officers verified that the fire did occur        During the lender’s due diligence
           and the location was inspected and               process in May 2010, it was determined
           photographs taken. Investigators                 that the broker had neither authored
           contacted shipping lines and customs             nor signed the “approval” letter to
           officials and were able to authenticate          the exporter. No policy was issued




Pa g e 3 2                      Semiannual Report to Congress
                                October 1, 2010 to March 31, 2011
     and there was no dollar loss to the           altered. The investigation included
     government. Investigation found no            several interviews with various officials
     other transactions or claims involving        and examined financial records,
     the exporter in question. His name was        exporter records, and transportation
     provided to Ex-Im Bank for enhanced           records. It was determined that the
     due diligence. Investigators interviewed      Mexican importation documents were
     Ex‑Im Bank staff members, the                 accurate with respect to the contents
     broker, and officials from the lending        and shipment, but only the name of
     institution. Several investigative            the borrower was changed. According
     techniques were utilized in an attempt        to customs officials, the alternation
     to locate and track down the exporter in      of the name most probably was an
     question, but he could not be located.        effort to avoid importation taxes in
     It was determined that while further          Mexico. The investigation was able
     investigative effort may be successful in     to authenticate that the shipment did
     locating him, it would not be without         occur, the exporter had been partially
     significant effort, costs, and travel.        paid before defaulting on the loan, and
     Early in the investigation, this matter       there were no indications that any of
     was discussed with DOJ and they               the loan proceeds were fraudulently sent
     indicated prosecution would not be            back to the borrower. Based on this
     forthcoming without a dollar loss or          information, this matter was presented
     confession from the subject. Since there      to the U.S. Attorney’s Office of the
     was no dollar loss in this matter, further    Southern District of Florida and they
     investigative efforts were deemed not to      declined prosecution on March 29,
     be cost beneficial and this matter was        2011. This case was closed on March
     closed on January 21, 2011. (Case No.         31, 2011. (Case No.10-0011-OGC-C).
     10-0019-OGC‑C)

12.	 This investigation was initiated based
     on information that a foreign buyer
     obtained a short-term loan to export
     soybean meal to Mexico and defaulted,
     after making no payments, causing a
     claim in the amount of $1,182,115.94.
     Subsequently, he could not be located
     by collection agents and Mexican
     importation documents he submitted
     to the lender appeared to have been




                              Office of Inspector General                        Pa g e 3 3
                                 Office of Investigations
    CROSS-REFERENCE TO REPORTING REQUIREMENTS
           OF THE INSPECTOR GENERAL ACT
Set forth below are cross-references of the reporting requirements prescribed by the identified sections of the
IG Act to the specific pages in this Semiannual Report where they are addressed.



  CITATION                               REPORTING REQUIREMENTS                                        PAGE
 Section 4(a)(2)    Review of legislation and regulations                                               1-2

 Section 5(a)(1)    Significant problems, abuses, and deficiencies                                      7-8

                    Recommendations with respect to significant problems, abuses, and
 Section 5(a)(2)                                                                                        7-8
                    deficiencies

                    Prior significant recommendations on which corrective action has not been
 Section 5(a)(3)                                                                                         12
                    completed

 Section 5(a)(4)    Matters referred to prosecutorial authorities                                        18

 Section 5(a)(5)    Summary of instances in which information was refused                               None

                    List of audit reports by subject matter, showing dollar value of questioned
 Section 5(a)(6)                                                                                        None
                    costs and recommendations that funds be put to better use

 Section 5(a)(7)    Summary of each particularly significant report                                    7 - 10

                    Statistical table showing number of reports and dollar value of questioned
 Section 5(a)(8)                                                                                        None
                    costs
                    Statistical table showing number of reports and dollar value of
 Section 5(a)(9)                                                                                        None
                    recommendations that funds be put to better use
                    Summary of each audit issued before this reporting period for which no
 Section 5(a)(10)                                                                                       None
                    management decision was made by end of reporting period

 Section 5(a)(11)   Significant revised management decisions                                            None

 Section 5(a)(12)   Significant management decisions with which the Inspector General disagrees         None

  Sections 5(a)
  (14), (15), &     Peer Review conducted and outstanding recommendations                               None
       (16)




Pa g e 3 4                      Semiannual Report to Congress
                                October 1, 2010 to March 31, 2011
Office of Inspector General (OIG) Hotline
Reporting Fraud, Waste, and Abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive
and investigate complaints or information concerning the possible existence of an
activity constituting a violation of law, rules, regulations, mismanagement, gross
waste of funds, abuse of authority, or a substantial and specific danger to the public
health and safety.

Whether reporting allegations via telephone, mail, or in person, the OIG will not
disclose the identity of persons making a report without their consent unless the IG
determines such disclosure is unavoidable during the course of the investigation.


Reporting Methods
You may submit your complaint or information by any of these methods:


In person:	   Office of Inspector General
		            Export-Import Bank of the United States
              811 Vermont Avenue, NW
              Washington, D.C. 20571


By Telephone: 1- 888-OIG-EXIM (1-888-644-3946)


By Mail:	     Ex-Im Bank OIG Hotline
              Office of Inspector General
              Export-Import Bank of the United States
              811 Vermont Avenue, NW
              Washington, D.C. 20571


By E-mail:	   IGhotline@exim.gov
Office of Inspector General
Export-Import Bank of the United States

811 Vermont Avenue, N. W.
Washington, DC 20571
Telephone 202.565.3908
Facsimile 202.565.3988
